CAPITAL CASE
EXECUTION SCHEDULED – JULY 15, 2020
No. 20A4
IN THE

Supreme Court of the United States
T.J. WATSON, WARDEN OF USP TERRE HAUTE,
UNITED STATES OF AMERICA,
Applicants,
v.
WESLEY IRA PURKEY,
Respondent.

OPPOSITION TO APPLICATION TO VACATE STAY OF EXECUTION

Wesley Purkey is scheduled to be executed on July 15, 2020. On July 2, 2020, a
unanimous panel of the Seventh Circuit (Wood, Brennan, St. Eve, JJ.) issued a temporary
stay of that execution, “to permit the orderly conclusion of the proceedings in th[at]
court.” App. 26a.1 As the court “emphasized,” Mr. Purkey has raised “at least two” claims
of ineffective assistance of trial counsel that “are worthy of further exploration,” but have
never been considered by any court. Id. The court further concluded that absent a stay,
Mr. Purkey stands to suffer “categorically irreparable injury—death,” that a “brief stay
to permit the orderly conclusion of the proceedings in th[at] court will not substantially

1

The Appendix appended to Government’s Application To Vacate Stay Of
Execution Issued By The United States Court of Appeals for the Seventh Circuit will be
cited herein as “App.” The Application itself will be cited as “Mot.”

harm the government, which has waited at least seven years to move forward on Purkey’s
case,” and that “the public interest is surely served by treating this case with the same
time for consideration and deliberation that [the court] would give any case.” App. 26a27a. The court also recognized that its reading of the relevant statute might be “too
restrictive,” and so allowed for the possibility that the full Seventh Circuit might reverse
the panel’s holding. App. 26a. Accordingly, the court entered a brief stay, that “will
expire upon the issuance of [the Seventh Circuit’s] mandate or as specified in any
subsequent order that is issued.” App. 27a.
At approximately 2 a.m. on July 4, 2020, the Government—apparently dissatisfied
with the Seventh Circuit’s considered judgment that a brief stay of execution serves the
interests of justice—filed an “emergency” petition requesting that the Seventh Circuit
summarily vacate the decision a unanimous panel issued merely two days earlier. The
so-called “emergency” purportedly justifying this extraordinary request is the
Government’s professed need to execute Mr. Purkey on July 15 and not a day later—
despite having previously waited over seven years to schedule an execution date in Mr.
Purkey’s case, and despite the fact that proceedings before the Seventh Circuit remained
ongoing.
Rather than wait for the Seventh Circuit to rule on its petition, the Government
now comes to this Court requesting vacatur of the stay, in a desperate attempt to shortcircuit the appellate process and execute Mr. Purkey before his claims have been duly
considered. The Government’s extraordinary motion comes nowhere close to satisfying
the high bar for justifying vacatur of a temporary, discretionary stay. The Government’s
request should be denied.

-2-

BACKGROUND
Mr. Purkey was convicted and sentenced to death in federal court in Missouri in
2003 and 2004. He was tried before a jury that included a juror presumed biased as a
matter of law because she had been the victim of a similar crime at the same age, and
bore the same name, as the victim in Mr. Purkey’s case. Although that juror (Juror 13)
disclosed this information on her juror questionnaire, Mr. Purkey’s trial counsel failed to
object to her being seated or even to question her about her potential bias. Then during
the penalty phase, trial counsel presented a meager mitigation case, the result of a
halfhearted investigation that failed to collect information about generations of important
family history and extensive physical and sexual abuse that Mr. Purkey suffered while at
home, school, and church at the hands of his parish priest.
In October 2007, Mr. Purkey brought a challenge to his conviction and sentence
under 28 U.S.C. § 2255. There, his counsel raised none of these issues. In short, Mr.
Purkey’s § 2255 counsel provided ineffective assistance.
Because of the ineffective assistance of his trial and § 2255 counsel, the first time
Mr. Purkey brought his claims of ineffective assistance of trial counsel to the attention of
any court was in August 2019, when he petitioned for habeas corpus under 28 U.S.C.
§ 2241 in the Southern District of Indiana, where he is confined. The petition challenged
Mr. Purkey’s conviction and sentence on several grounds, including that he had received
ineffective assistance of trial counsel because trial counsel failed to strike an impliedly
biased juror and failed to present critical mitigation evidence.
The district court denied the petition in November 2019, concluding that it was
barred by § 2255(h), which generally prohibits the filing of “second or successive” federal
-3-

habeas petitions. See App. 52a, 54a. The court further held that the Savings Clause
codified in § 2255(e) was not available to Mr. Purkey. Even if Mr. Purkey’s initial § 2255
counsel was constitutionally ineffective, the court reasoned, that would not render the
initial § 2255 proceedings “inadequate or ineffective” to test the legality of Mr. Purkey’s
detention within the meaning of the Clause.

See App. 50a-54a.

In reaching that

conclusion, the district court distinguished Martinez v. Ryan, 566 U.S. 1 (2012), and
Trevino v. Thaler, 569 U.S. 413 (2013), where the Court held that procedural default does
not bar federal habeas review of a state prisoner’s substantial claims of ineffective
assistance of trial counsel when that default was the result of ineffective assistance of
initial-review collateral counsel. Those decisions, the district court said, did not “involve
the Savings Clause” and therefore were “not controlling.” App. 48a.
Meanwhile, in July 2019—a decade and a half after Mr. Purkey’s conviction and
sentence—the Government for the first time set a date for his execution (for December
2019) under a newly announced federal lethal-injection protocol.2 In November 2019, the
U.S. District Court for the District of Columbia preliminarily enjoined his execution (and
three others) under the new protocol. See Mem. Op., Roane v. Barr, No. 19-mc-145
(D.D.C. Nov. 20, 2019), Dkt. #50. The Government appealed and, on April 7, 2020, a
divided panel of the U.S. Court of Appeals for the D.C. Circuit vacated the injunction. In
re Federal Bureau of Prisons’ Execution Protocol Cases, 955 F.3d 106 (D.C. Cir. 2020),
cert. denied sub nom. Bourgeois v. Barr, No. 19-1348, 2020 WL 3492763 (U.S. June 29,

2

Press Release No. 19-807, Federal Government to Resume Capital Punishment
After Nearly Two Decade Lapse (July 25, 2019), https://bit.ly/2Z8y8Qg.

-4-

2020). The D.C. Circuit’s mandate issued on Friday, June 12, and on Monday, June 15—
the day before the Seventh Circuit argument in Mr. Purkey’s § 2241 appeal—the
Government scheduled Mr. Purkey’s execution for four weeks later, on July 15, 2020.
On July 2, 2020, the Seventh Circuit affirmed the district court’s dismissal of
Mr. Purkey’s § 2241 petition. The court recognized that a federal prisoner who receives
ineffective assistance of § 2255 counsel is functionally in the same position as the state
prisoners in Martinez and Trevino. But unlike for those state prisoners, the court stated
that “the availability of further relief … is not a simple matter of federal common law,”
but is instead “governed by statutes.” App. 25a. To benefit from the Savings Clause, the
court wrote, “there must be a compelling showing that, as a practical matter, it would be
impossible to use section 2255 to cure a fundamental problem.” App. 20a (emphasis
added). Mr. Purkey could not make that showing, the court concluded, because at the
time he filed his § 2255 petition “nothing formally prevented him from raising each of the
… errors he now seeks to raise in his petition under [§] 2241.” Id. (emphasis added).
Although the court held against Mr. Purkey on the availability of the Savings
Clause, it granted Mr. Purkey’s request for a stay of execution “to permit the orderly
conclusion of the proceedings” in the Seventh Circuit. App. 26a-27a. The court noted
that the underlying claims of ineffective assistance of trial counsel raised by Mr. Purkey’s
petition were “serious”—specifically, those concerning Juror 13 and the inadequate
mitigation case—and that it was “troubling” that no court had ever considered those
claims. App. 20a, 22a, 25a. The court emphasized, moreover, that it had “rejected” Mr.
Purkey’s ineffective assistance claims “not on the merits, but because of [its]
understanding of the safety valve language” of § 2255(e). App. 26a. And the court

-5-

recognized that if its “reading of the safety valve [was] too restrictive, there would be
significant issues to litigate.” Id. For that reason—and in recognition that Mr. Purkey
satisfied the relevant four-factor test—the court issued a brief stay of execution that
would expire upon the issuance of its mandate or until a time set forth in a subsequent
order. App. 26a-27a.
Less than 36 hours after the court issued its decision, at approximately 2 a.m. on
July 4, the Government filed a petition for rehearing en banc seeking to immediately
vacate the stay. On July 6, the Seventh Circuit issued an order directing Mr. Purkey to
respond to the Government’s petition by 12 p.m. on July 10, which Mr. Purkey did.
Rather than wait for the Seventh Circuit to decide its petition, however, the
Government—in another attempt to short-circuit the normal appellate process—filed
another emergency motion with this Court on Saturday, July 11, now asking this Court
to vacate the stay even while the full Seventh Circuit considers whether to grant the
same relief, so that it can proceed with its chosen July 15 execution date.
ARGUMENT
The standard of review on an application to vacate a stay of execution is highly
deferential.

A stay of execution is an equitable remedy that lies within a court’s

discretion. See Kemp v. Smith, 463 U.S. 1321 (1983) (Powell, J., in chambers). Where, as
here, the court of appeals has granted a stay of execution, “this Court generally places
considerable weight on the decision reached by the courts of appeals.” Barefoot v. Estelle,
463 U.S. 880, 896 (1983). “Only when the lower courts have clearly abused their discretion
in granting a stay should [this Court] take the extraordinary step of overturning such a
decision.” Dugger v. Johnson, 485 U.S. 945, 947 (1988) (O’Connor, J., joined by Rehnquist,

-6-

C.J., dissenting); see also Doe v. Gonzales, 546 U.S. 1301, 1307, 1309 (2005) (Ginsburg, J.,
in chambers) (denying application to vacate stay entered by court of appeals “[a]lthough
there is a question as to the likelihood of … success on the merits” because “the applicants
have not shown cause so extraordinary as to justify this Court’s intervention in advance
of the expeditious determination of the merits toward which the Second Circuit is swiftly
proceeding” (internal quotation marks omitted)).
In considering whether to grant a stay of Mr. Purkey’s execution, the Seventh
Circuit considered: “(1) whether the stay applicant has made a strong showing that he is
likely to succeed on the merits; (2) whether the applicant will be irreparably injured
absent a stay; (3) whether issuance of the stay will substantially injure the other parties
interested in the proceeding; and (4) where the public interest lies.” App. 26a (quoting
Nken v. Holder, 556 U.S. 418, 434 (2009)). The court did not abuse its discretion in holding
that these factors weighed in favor of a temporary stay.
I.

THE SEVENTH CIRCUIT CORRECTLY CONCLUDED THAT MR. PURKEY’S
SHOWING ON THE MERITS JUSTIFIES A BRIEF STAY
The Seventh Circuit panel correctly concluded that Mr. Purkey has raised at least

two “significant issues” regarding the effectiveness of his trial counsel that he has not yet
had an opportunity to litigate. App. 26a. This showing justifies the brief stay entered by
the Seventh Circuit.
First, the court correctly found that trial counsel was ineffective in failing to
object, or even to question, Juror 13. See App. 20a. Due to trial counsel’s ineffectiveness
on this score, a juror with the same name as the victim in Mr. Purkey’s case who herself
had been the victim of an attempted rape at the same age as the victim in Mr. Purkey’s

-7-

case was seated on the jury that voted to convict Mr. Purkey and to send him to death.
That juror was presumptively biased. See Fuller v. Bowersox, 202 F.3d 1053, 1056 (8th
Cir. 2000); Hunley v. Godinez, 975 F.2d 316, 319 (7th Cir. 1992) (per curiam). And “[t]he
presence of a biased jury constitutes a fundamental, structural defect that affects the
entire conduct of the trial.” United States v. Dale, 614 F.3d 942, 960 (8th Cir. 2010); see
also Johnson v. Armontrout, 961 F.2d 748, 756 (8th Cir. 1992).
Second, the court agreed with Mr. Purkey that trial counsel “fail[ed] … to conduct
a proper mitigation analysis.” App. 26a. Trial counsel failed entirely to investigate the
three years that Mr. Purkey was sexually abused by his parish priest, from age 11 to 13;
the physical abuse, degradation, and humiliation that Mr. Purkey suffered at school; and
Mr. Purkey’s family history of, and genetic vulnerability to, neurodegenerative disease,
PTSD, substance abuse, and addiction. That trial counsel presented other mitigating
evidence does not end the inquiry, because “counsel’s effort to present some mitigation
evidence” does not “foreclose an inquiry into whether a facially deficient mitigation
investigation might have prejudiced the defendant.” Sears v. Upton, 561 U.S. 945, 955
(2010) (per curiam).
That prejudice inquiry is worthy of particularly careful examination in Mr.
Purkey’s case, given that the Seventh Circuit observed that it was “disturbed that the
jury left blank the spaces on the verdict form for its consideration of Purkey’s many trial
arguments in mitigation, and that trial counsel did not insist that the case be returned to
the jury for completion of those blanks when he had the chance.” App. 22a-23a. Because
of these problems, the court noted, “it is hard to know whether” the jury actually fulfilled
its obligation of “balanc[ing] aggravating and mitigating factors.” App. 23a. Indeed, had

-8-

the jury “focus[ed] on mitigation, … it may have found some points in Purkey’s favor”—
“even based on only the trial evidence.” Id. These concerns are all the more alarming
given the wealth of evidence that trial counsel failed to investigate and resultingly never
shared with the jury.
In affirming the denial of Mr. Purkey’s § 2241 petition, the court made clear that
it was not rejecting either of these two claims on the merits. App. 27a. To the contrary,
the court appears to have agreed with Mr. Purkey’s contention that these claims have at
least “some merit,” as that phrase is used in Martinez. For that reason, the court did not
dispute that if he were a state prisoner proceeding under § 2254, Mr. Purkey likely would
be permitted to assert these ineffective assistance of trial counsel claims. See App. 25a.
The court ultimately concluded, however, that § 2255(e)’s Savings Clause demanded that
federal prisoners be treated differently and did not permit Mr. Purkey to file a second
habeas petition under § 2241 even if his post-conviction counsel had been ineffective.
App. 26a.
Moreover, the Seventh Circuit recognized that § 2255(e) question was a difficult
one that tested both Supreme Court and Seventh Circuit precedent in new ways, even
suggesting that its reading of § 2255(e) might be “too restrictive.” App. 26a. Mr. Purkey
submits that the Seventh Circuit’s reading of § 2255(e) was too restrictive—because it
both contravenes this Court’s decisions in Martinez v. Ryan, 566 U.S. 1 (2012), and
Trevino v. Thaler, 569 U.S. 413 (2013), and is inconsistent with the Seventh Circuit’s own
precedent in Ramirez v. United States, 799 F.3d 845 (7th Cir. 2015). For that reason,
contrary to the Government’s assertions (Mot. 3-4, 12, 16-17), the full Seventh Circuit or

-9-

this Court is likely to reverse the panel decision, meaning that Mr. Purkey is likely to
succeed on the merits of his appeal.
In Coleman v. Thompson, 501 U.S. 722 (1991), this Court held that an attorney’s
negligence does not constitute cause to excuse procedural default in state post-conviction
proceedings. In Martinez, however, this Court recognized an equitable exception to that
holding: The Court held that where, by virtue of the structure of a State’s procedural
framework, “claims of ineffective assistance of trial counsel must be raised in an initialreview collateral proceeding, a procedural default will not bar a federal habeas court from
hearing a substantial claim of ineffective assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or counsel in that proceeding was ineffective.”
566 U.S. at 17. The Court recognized that because many state-court systems “move trialineffectiveness claims outside of the direct-appeal process, where counsel is
constitutionally guaranteed, the State significantly diminishes prisoners’ ability to file
such claims” and that a defendant’s constitutional right to counsel—a “bedrock principle
in our justice system”—will be difficult, if not impossible, to vindicate “[w]ithout the help
of an adequate attorney.” Id. at 11-13. But the Court limited its holding to state
jurisdictions where ineffective assistance claims are required to be raised during initial
collateral proceedings rather than on direct appeal.
The following year, the Court granted certiorari in Trevino to clarify whether
Martinez’s holding applied equally in jurisdictions where ineffective assistance of trial
counsel claims were not prohibited outright during direct appeal proceedings, but where
the state-court procedures made it “‘virtually impossible for appellate counsel to
adequately present an ineffective assistance of trial counsel claim’ on direct review.”

- 10 -

Trevino, 569 U.S. at 423 (citations and brackets omitted). The Court held that it did. See
id. at 428-429 (clarifying that Martinez also applies where the State’s “procedural
framework … makes it highly unlikely in a typical case that a defendant will have a
meaningful opportunity to raise” a substantial claim of ineffective assistance of trial
counsel on direct appeal). As in Martinez, in Trevino the Court focused on the centrality
of the effective assistance of trial counsel to our criminal justice system and,
correspondingly, the importance of permitting prisoners a meaningful opportunity to
develop and present substantial claims of ineffective assistance of trial counsel. See id. at
422-423; see also Davila v. Davis, 137 S. Ct. 2058, 2066 (2017) (“[T]he Court in Martinez
was principally concerned about trial errors—in particular, claims of ineffective
assistance of trial counsel.”).
A federal prisoner with substantial claims of ineffective assistance of trial counsel,
who lacked effective assistance of initial-review collateral counsel, is in the exact same
position as the state prisoners were in Martinez and Trevino. In the normal course, a
federal prisoner first files a direct appeal, but the required timing for direct appeals under
the federal rules precludes bringing an adequately developed claim of ineffective
assistance of trial counsel. A § 2255 petition thus provides a federal prisoner’s first real
opportunity to raise claims of ineffective assistance of trial counsel. See Massaro v.
United States, 538 U.S. 500, 508 (2003). Where that § 2255 proceeding is “undertaken …
with ineffective counsel,” however, it likely is not “sufficient to ensure that proper
consideration was given to a substantial claim” of ineffective assistance of trial counsel.
Martinez, 566 U.S. at 14.

That is because, as recognized in Martinez, ineffective

assistance of trial counsel claims are difficult if not impossible to mount “[w]ithout the

- 11 -

help of an adequate attorney,” because “[c]laims of ineffective assistance at trial often
require investigative work and an understanding of trial strategy.”

Id. at 11-13.

Congress recognized as much in ensuring that capital defendants (unlike most federal
prisoners) have the right to counsel not only through trial and direct appeal, but also in
post-conviction proceedings. 18 U.S.C. § 3599; see Martel v. Clair, 565 U.S. 648, 658-660
(2012). Yet, under the constraints of § 2255(h), that one initial proceeding is the only
chance a federally death-sentenced prisoner will get to present substantial claims of
ineffective assistance of trial counsel. The principles this Court articulated in Martinez
and Trevino instruct that such prisoners be given the opportunity to raise such claims in
a second petition pursuant to §§ 2241 and 2255(e).
In this regard, a § 2255 proceeding in which a federal capital prisoner receives
ineffective assistance of counsel is structurally “inadequate or ineffective” to test the
legality of his conviction and sentence.3 Under those circumstances, because § 2255
counsel was ineffective, the prisoner is denied “an opportunity to bring his argument,”
and thus the “‘remedy by motion’” under § 2255 is “‘inadequate or ineffective’” to test the
legality of his detention. Prost v. Anderson, 636 F.3d 578, 584-585 (10th Cir. 2011)
(Gorsuch, J.). This is not to say that because the prisoner was denied relief, § 2255 is

3

The Government asserts that Antiterrorism and Effective Death Penalty Act of
1996 (AEDPA) forecloses Mr. Purkey’s claim. See Mot. 19-21. To the contrary, in
enacting AEDPA, Congress restricted the availability of “second or successive” habeas
petitions under § 2255 to situations where the movant can point to either “newly
discovered evidence” that would undermine his conviction, or a new, retroactive “rule of
constitutional law … that was previously unavailable.” 28 U.S.C. § 2255(h). But, in doing
so, Congress did not alter the Savings Clause of § 2255(e)—an implicit acknowledgment
that § 2241 would be available in some cases other than the two narrow circumstances
identified in § 2255(h). AEDPA thus cuts in Mr. Purkey’s favor.

- 12 -

inadequate or ineffective. Rather, it is the denial even of an opportunity to present
substantial claims of ineffective assistance of trial counsel that renders the remedy
inadequate or ineffective to test the legality of the conviction and sentence. See id.
Indeed, under those circumstances (as here), no court will ever review the prisoner’s
substantial claims of ineffective assistance of trial counsel before he is put to death. For
that reason, the Seventh Circuit’s conclusion that to benefit from the Savings Clause in
§ 2255(e), “there must be a compelling showing that, as a practical matter, it would be
impossible to use section 2255 to cure a fundamental problem”—and that ineffective
assistance of § 2255 counsel does not create such an impossibility—is incorrect. App. 20a
(emphasis added). Under those circumstances, raising substantial claims of ineffective
assistance of trial counsel is—for all practical purposes—impossible. Accordingly, the
principles this Court articulated in Martinez and Trevino require that such prisoners be
given the opportunity to raise such claims in a petition under § 2241.
For much the same reasons, the panel’s decision conflicts with the Seventh
Circuit’s own precedent. In Ramirez, the Seventh Circuit held that a federal prisoner
who receives ineffective assistance of initial-review collateral counsel may use Federal
Rule of Civil Procedure 60(b) to reopen his § 2255 proceedings to press substantial claims
of ineffective assistance of trial counsel. The court explained:
Because the federal courts have no established procedure … to develop
ineffective assistance claims for direct appeal, the situation of a federal
petitioner is the same as the one the Court described in Trevino: as a
practical matter, the first opportunity to present a claim of ineffective
assistance of trial or direct appellate counsel is almost always on collateral
review, in a motion under section 2255.

- 13 -

799 F.3d 853. The court found there was “no reason to distinguish between actions at the
state level that result in procedural default and the consequent loss of a chance for federal
review, and actions at the federal level that similarly lead to a procedural default that
forfeits appellate review” and thus the holdings of Martinez and Trevino “‘apply to all
collateral litigation under 28 U.S.C. § 2254 or § 2255.’” Id. at 852, 854.
Ramirez stands in direct conflict with the panel’s decision here.

Ramirez

recognized, in no uncertain terms, that the principles underlying Martinez and Trevino
apply to federal prisoners. Applying those principles, it unavoidably follows that where
a federal prisoner is denied meaningful review of his substantial claims of ineffective
assistance of trial counsel because of ineffective assistance of collateral counsel, he was
denied an opportunity to bring those claims and § 2255 is “inadequate or ineffective” to
test the legality of his conviction and sentence. This intra-circuit conflict makes it
particularly likely that the Seventh Circuit will reverse the panel’s decision here.4
All told, then, the Seventh Circuit here concluded that Mr. Purkey’s underlying
claims had merit but were jurisdictionally unavailable due to a close question of first
impression involving the interaction between multiple statutory provisions and lines of

4

The Government argues that it is “exceedingly unlikely that … the en banc
Seventh Circuit … would hold that [Mr. Purkey’s] application for habeas relief should
proceed” because another panel of the Seventh Circuit denied another federal capital
prisoner’s request for a stay of execution. Mot. 15, 22-23 (citing Lee v. Watson, No. 193318, 2020 WL 3888196, at *2-*3 (7th Cir. July 10, 2020)). However, the Lee panel was
bound by the panel’s decision in this case and thus was not free to hold otherwise absent
a contrary ruling from the Seventh Circuit en banc, as the Government appears to
concede. See Mot. 15 (noting that “another Seventh Circuit panel [was] applying the
decision below to a separate but ‘indistinguishable’ Section 2241 case” (emphases
added)). The Lee decision simply has no bearing on whether the full Seventh Circuit is
likely to reverse the panel’s decision here.

- 14 -

judicial precedent. Under those circumstances, it was well within the Seventh Circuit’s
discretion to enter a temporary stay of execution to permit Mr. Purkey to seek further
review in that court. In any event, the en banc Seventh Circuit or this Court is likely to
reverse the panel’s decision that § 2241 is unavailable to Mr. Purkey, which is sufficient
to establish a likelihood of success on the merits.
II.

THE SEVENTH CIRCUIT CORRECTLY CONCLUDED THAT MR. PURKEY WILL
SUFFER IRREPARABLE HARM ABSENT A STAY
As the Seventh Circuit correctly found, irreparable harm is indisputably present

when a stay of execution is sought.

See App. 26a (absent a stay, “Purkey faces

categorically irreparable injury—death”). That conclusion is consistent with this Court’s
precedent, which instructs that “death is different”—“execution is the most irremediable
and unfathomable of penalties.” Ford v. Wainwright, 477 U.S. 399, 411 (1986) (plurality
op.); see also Wainwright v. Booker, 473 U.S. 935, 935 n.1 (1985) (Powell, J., concurring)
(“The third requirement—that irreparable harm will result if a stay is not granted—is
necessarily present in capital cases.”).
The fact that, absent a stay, Mr. Purkey will be executed without any court ever
having heard his substantial claims of ineffective assistance of trial counsel only supports
the finding of irreparable harm. See App. 20a, 22a, 25a (characterizing Mr. Purkey’s
underlying claims of ineffective assistance of trial counsel as “serious” and noting that it
found “troubling” that no court had ever considered those claims).

- 15 -

III.

THE SEVENTH CIRCUIT CORRECTLY CONCLUDED THAT THE EQUITABLE
FACTORS FAVOR A STAY
As the Seventh Circuit correctly found, contrary to the irreparable harm Mr.

Purkey would suffer absent a stay, a stay would “not substantially harm the government,
which has waited at least seven years to move forward on Purkey’s case.” App. 26a-27a.
The Government in fact did not proceed with any federal executions during that time
period while they revised their lethal-injection protocol, including six years when they
were purportedly engaged in the “final phases of finalizing th[at] protocol.” Status
Report, Roane v. Gonzales, No. 05-cv-02337 (D.D.C. July 3, 2013), Dkt. #323. “[T]hat the
government has not—until now—sought to” schedule Mr. Purkey’s execution
“undermines any urgency surrounding” its need to do so, and supports the notion that it
will not be harmed if the execution is stayed for a brief period of time to permit the
appellate process to play out. Osorio-Martinez v. Attorney General of United States, 893
F.3d 153, 179 (3d Cir. 2018).
Yet, despite its lengthy, self-imposed delay, the Government is now in a rush. In
July 2019, it announced a new execution protocol—after, again, having no protocol in
place for years—and simultaneously set Mr. Purkey’s execution for December 2019.
Before that execution could take place, a D.C. district court enjoined Mr. Purkey’s
execution—an injunction that was in effect until June 12. Then on the first business day
after that injunction was lifted (June 15), the Government immediately moved to set a
new execution date merely one month out—even though oral argument was scheduled in
this case for one day later, on June 16, making it impossible for the appellate process to
proceed before the Seventh Circuit in the ordinary course. Then, when the Seventh

- 16 -

Circuit granted a brief stay of Mr. Purkey’s execution, the Government filed a motion
within 36 hours, on a federal holiday, seeking to summarily vacate that stay so that it
could execute Mr. Purkey before his claims were finally adjudicated. And before the
Seventh Circuit had the opportunity to rule on that motion, the Government—again, in
an effort to circumvent the normal appellate process—now seeks emergency relief from
this Court. This conduct does not serve the public interest and is not justified by the
Government’s “significant interest in enforcing its criminal judgment.”

Nelson v.

Campbell, 541 U.S. 637, 649-650 (2004). Rather, to borrow the Seventh Circuit’s words,
“the public interest is surely served by treating this case with the same time for
consideration and deliberation that [the Court] would give any case.” App. 27a. And the
fact that “the death penalty is involved is no reason to take short-cuts—indeed, it is a
reason not to do so.” Id.
Nonetheless, the Government asks to bypass any further judicial process because
Mr. Purkey “did not act with … expedition or diligence” in filing his claims and instead
engaged in “last-minute litigation.” Mot. 23-24. As the panel found, that is not the case.
See App. 9a (noting that Mr. Purkey “[l]os[t] no time” in filing his § 2241 petition). The
execution date was set in July 2019, Mr. Purkey filed the § 2241 petition in August 2019,
and the district court reached its decision in November 2019. The petition relies on
evidence obtained through the very month of filing (August 2019). See Dist. Ct. App. 7888 (Dkt. #23-5 at PageID# 3518-3528). The Government focuses—as it did before the
Seventh Circuit—on an affidavit from May 2017 focusing on the Juror 13 issue. See Mot.
24. But the § 2241 petition contained seven other claims that Mr. Purkey pursued up until
filing. The Government’s unsupported statements to the contrary—that Mr. Purkey was

- 17 -

aware of the factual bases for his claims for years and nonetheless failed to act (see Mot.
24-25)—ignore the record and the motion papers before the panel.
The accusation that Mr. Purkey hurried to complete his § 2241 petition once his
execution date was scheduled (Mot. 24) misses the point. Mr. Purkey and his § 2241
counsel pursued his claims while no execution was scheduled, but then hurried to
complete the 221-page petition and 2,500-page appendix by necessity when the
Government sprung a surprise new execution protocol and set an execution date for a
few months later.

Mr. Purkey and his counsel therefore have not “delayed

unnecessarily”; they have diligently advanced his § 2241 claims, which could not “have
been brought at such a time as to allow consideration of the merits without requiring
entry of a stay.” Nelson, 541 U.S. at 650. Nor did Mr. Purkey delay in seeking a stay
from the Seventh Circuit—he sought a stay just two days after the new execution date
was announced and four weeks before the scheduled execution.
As the Seventh Circuit panel recognized in granting the stay, this case presents
substantial issues that merit the full Seventh Circuit’s considered review. Whether and
by what procedural mechanism federal capital prisoners who are in the analogous position
of the state prisoners in Martinez and Trevino—i.e., whose substantial claims of
ineffective assistance of trial counsel were defaulted by ineffective § 2255 counsel—may
press such claims in petitions brought pursuant to § 2241, is an important question on
which the Seventh Circuit’s views have not fully crystalized. Although the panel held
against Mr. Purkey on the merits of that question, it recognized that its “understanding
of the safety valve” may be “too restrictive,” and if so “there would be significant issues
to litigate.” App. 26a.
- 18 -

Thoughtful resolution of the issue to be presented by Mr. Purkey’s appeal is of
increased importance now that the Government has—for the first time in nearly two
decades—begun scheduling executions. There are nearly 60 prisoners on federal death
row, some of whom may face the possibility of execution despite their having substantial
claims of ineffective assistance of trial counsel that have never been reviewed by any
court. As a result, the question of the availability of § 2241 will recur. The question takes
on heightened importance in the Seventh Circuit. Because nearly all federal death row
prisoners are incarcerated at U.S.P. Terre Haute and § 2241 petitions must be filed in the
district where the prisoner is incarcerated, nearly all claims of this type must be brought
in the Southern District of Indiana (where Terre Haute sits). That is all the more reason
to permit the Seventh Circuit to consider these weighty issues in the ordinary course.
This Court should not intervene to upset the Seventh Circuit’s considered judgment that
a brief stay is warranted.
CONCLUSION
The Government’s request to vacate the stay entered by the Seventh Circuit
should be denied.
Respectfully submitted.

/s/ Alan E. Schoenfeld
ALAN E. SCHOENFELD
Counsel of Record
STEPHANIE SIMON
RYAN CHABOT
JULIA C. PILCER
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center

REBECCA E. WOODMAN
ATTORNEY AT LAW, L.C.
1263 W. 72nd Terrace
Kansas City, MO 64114
(785) 979-3672
MICHELLE M. LAW
ASSISTANT FEDERAL PUBLIC DEFENDER

- 19 -

WESTERN DISTRICT OF MISSOURI
901 St. Louis Street, Suite 801
Springfield, MO 65806
(417) 873-9022

250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

July 2020

- 20 -

CAPITAL CASE
EXECUTION SCHEDULED – JULY 15, 2020
CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that on
this 12th day of July, 2020, I caused all parties requiring service in this matter to be
served with the accompanying Opposition to the Application to Vacate Stay of
Execution by email to the address below:
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
I further certify that paper copies will be submitted to the Court and served on
all parties requiring service by overnight courier on July 13, 2020, per discussion with
the Clerk’s Office.

/s/ Alan E. Schoenfeld
ALAN E. SCHOENFELD
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

